Department of Homeland Security
   Ofﬁce of Inspector General


    U.S. Citizenship and Immigration Services' 

     Implementation of the Kendell Frederick 

             Citizenship Assistance Act





OIG-10-39                               January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                     January 25, 2010


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of U.S. Citizenship and Immigration
Services’ (USCIS) implementation of the Kendell Frederick Citizenship Assistance Act.
It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary ................................................................................................................1


Background .............................................................................................................................2


Results of Audit ......................................................................................................................7


           Implementation of the Act ..........................................................................................7


           Technology Initiatives and Challenges.....................................................................14


           Privacy ......................................................................................................................21


           Recommendations.....................................................................................................22 


Management Comments and OIG Analysis .........................................................................23 


Appendices
   Appendix A:          Scope and Methodology.............................................................................25 

   Appendix B:          Management Comments to the Draft Report .............................................27 

   Appendix C:          Major Contributors to This Report.............................................................30 

   Appendix D:          Report Distribution.....................................................................................31 


Abbreviations
     BBSS     Benefits Biometric Support System
     CIS      Central Index System
     CLAIMS 4 Computer Linked Application Information Management System
              version 4             

     DOD      Department of Defense
     DHS      Department of Homeland Security
     FBI      Federal Bureau of Investigation
     FY       fiscal year
     IDENT    Automated Biometric Identification System
     IT       information technology
     NSC      Nebraska Service Center
     OIG      Office of Inspector General
     PIA      Privacy Impact Assessment
     USCIS    United States Citizenship and Immigration Services
Table of Contents/Abbreviations 


Figures

  Figure 1:   USCIS Organization Structure for Processing Military Naturalizations.. 3 


  Figure 2:   Military Naturalization Process............................................................... 4 


  Figure 3:   Fingerprint Resubmission Process .......................................................... 8 


  Figure 4:   Rejection Rate of Fingerprint Resubmissions ....................................... 10 


  Figure 5:   Average Military Naturalization Processing Time (FY 2009).............. 11 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                           In June 2008, Congress passed the Kendell Frederick Citizenship
                           Assistance Act to streamline the process for U.S. military service
                           members seeking to become U.S. citizens. The act directs the
                           Secretary of Homeland Security to accept fingerprints submitted
                           by military citizenship applicants at the time of their enlistment or
                           from prior submissions to the Department of Homeland Security,
                           expedite the processing of citizenship applications, and implement
                           procedures to ensure rapid electronic transmission of biometric
                           information and safeguarding of privacy. As directed by the
                           Congress, we assessed USCIS’ implementation of (1) the act’s
                           requirements, including an assessment of the technology used to
                           improve the efficiency of the naturalization process for members
                           of the United States Armed Forces and (2) the impact of this act on
                           privacy and civil liberties.

                           USCIS has taken actions to meet the act’s requirements.
                           Specifically, USCIS has implemented a process to use previously
                           submitted fingerprints for military naturalizations, and it tracks and
                           reports processing time to ensure that it completes adjudication of
                           applications timely. USCIS has also undertaken several
                           information technology initiatives to improve the military
                           naturalization process. However, USCIS’ information technology
                           systems, such as the application processing system and background
                           check support systems, do not meet all user requirements. As a
                           result, personnel must devote resources to work around system
                           limitations. Further, USCIS had not yet completed a privacy
                           assessment for its process to obtain enlistment fingerprints from
                           partner agencies. Without such an assessment, we were unable to
                           assess whether that process was properly safeguarded.

                           We are recommending that USCIS: (1) address those requirements
                           not met by existing information technology systems through its
                           ongoing information technology transformation process; (2)
                           implement mobile fingerprint capabilities overseas; (3) pursue
                           expanding the use of video teleconference technology in the
                           naturalization process; and (4) finalize the privacy impact
                           assessment for the system used to store fingerprints obtained from
                           partner agencies.


U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 1
Background
                           More than 45,000 noncitizen soldiers serve in the United States
                           military, many of them on active duty in Afghanistan and Iraq.
                           The United States seeks to provide these foreign-born men and
                           women the opportunity to become naturalized U.S. citizens. The
                           federal government has made efforts to make it easier for
                           noncitizen soldiers to apply for citizenship. In the summer of
                           2002, President Bush signed Executive Order 13269 to expedite
                           the naturalization process, temporarily waiving the application fee
                           and the period of service requirement. Since September 2001,
                           more than 47,000 service men and women, including more than
                           6,000 service members naturalized in ceremonies overseas and
                           onboard Navy flagships at sea, have become U.S. citizens.

                           The case of one noncitizen soldier, U.S. Army Reserve Specialist
                           Kendell Frederick, brought attention to needed improvements in
                           the naturalization process for military personnel. Specialist
                           Frederick, a citizen of Trinidad and a resident of Randallstown,
                           Maryland, was on active duty in Iraq serving as a U.S. Army
                           generator mechanic. He sought U.S. citizenship for more than a
                           year, applying three times and filling out multiple forms. In
                           October 2005, as part of the naturalization process, Specialist
                           Frederick was required to submit fingerprints. While returning
                           from an off-base location to submit these fingerprints, he was
                           killed by a roadside bomb.

                           In response to Specialist Frederick’s death, Congress passed the
                           Kendell Frederick Citizenship Assistance Act (Public Law 110­
                           251) in June 2008 to streamline the process for soldiers seeking to
                           become U.S. citizens. The act directs the Secretary of Homeland
                           Security to ensure proper coordination and expedite the processing
                           of citizenship applications filed by military personnel.
                           Specifically, the law directs the Department of Homeland Security
                           (DHS) to accept fingerprints or other biometrics information
                           submitted by applicants at the time of their enlistment or from
                           prior submissions to USCIS. The act also requires that DHS
                           ensure that the privacy of biometric information provided by
                           military personnel, including fingerprints, is safeguarded.

                           USCIS is the component within DHS responsible for the
                           naturalization process.1 USCIS’ mission is to secure America’s
                           promise as a nation of immigrants by providing accurate and useful
                           information to its customers, granting immigration and citizenship

1
    6 U.S.C. § 271(b).
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 2
                           benefits, promoting an awareness and understanding of citizenship,
                           and ensuring the integrity of the immigration system.

                           The Domestic Operations Directorate, which reports to the
                           Director of USCIS, leads the military naturalization process
                           domestically. The International Operations Division manages the
                           naturalization process overseas and works in collaboration with the
                           Domestic Operations Directorate, although it is organizationally
                           situated in a separate directorate. Several divisions within
                           Domestic Operations are responsible for carrying out the military
                           naturalization process. As part of the Service Center Operations
                           Division, a specialized team at the Nebraska Service Center (NSC)
                           conducts centralized processing of military naturalizations. Under
                           the Field Operations Division, USCIS has four regional offices, 26
                           districts with 90 field and support offices, and 136 Application
                           Support Centers to carry out operations throughout the United
                           States. Figure 1 shows the major organizational entities within
                           USCIS responsible for the military naturalization process.




                           Figure 1: USCIS Organization Structure for Processing Military Naturalizations

                           To manage issues unique to military personnel effectively, USCIS
                           has created a working group with members from its organizational
                           divisions involved in military services, including naturalizations.
                           The group meets on a weekly basis to discuss a variety of topics
                           that include process improvements, policy formulation, issues
                           raised by field offices and service centers, quality assurance, public
                           outreach efforts, interoffice coordination, customer service
                           improvements, and compliance with executive orders, laws, and
                           agency directives. USCIS also conducts quarterly meetings to
                           coordinate with the Department of Defense (DOD) to ensure


U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 3
                            collaboration and communication in providing immigration
                            services to military personnel.

                            The Immigration and Nationality Act provides that all legal
                            permanent residents may potentially become citizens through a
                            process of naturalization.2 Military service members are given
                            priority to become citizens, and the process for naturalizing them is
                            unique. Figure 2 shows the naturalization process for military
                            applicants and supporting technology systems.




                            Figure 2: Military Naturalization Process

                            Service members applying for naturalization must submit to
                            USCIS an Application for Naturalization, a certified Request for
                            Certification of Military or Naval Service, and the Biographic
                            Information Form, as well as a permanent resident card, if
                            applicable; passport-style photos; and fingerprints for background
                            and security checks. Service members may seek assistance from
                            their designated military points of contact to complete their
                            naturalization application packets.

                            Processing military applications is centralized in the Military
                            Naturalization Unit at the NSC. A specialized team, staffed with
                            16 Immigration Service Officers, processes about 800 military
                            naturalization applications each month. The team performs initial
                            data entry into the Computer Linked Application Information
                            Management System version 4 (CLAIMS 4). CLAIMS 4 is an
                            electronic case management system that offers automated support
                            for a variety of tasks associated with processing and making an
                            eligibility determination for immigration benefits. CLAIMS 4 is
                            used to receive applications, input application information,

2
    Immigration and Nationality Act, Public Law 82-414, Title 3, Chapter 2.
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                    Page 4
                           schedule interviews and oath ceremonies, and track benefit
                           determinations.

                           The NSC also initiates the following three required background
                           and security checks:

                               �	 Federal Bureau of Investigation (FBI) fingerprint check –
                                  NSC personnel submit an applicant’s fingerprints to the
                                  FBI for a criminal background check. USCIS uses its
                                  Benefits Biometric Support System (BBSS) to submit
                                  fingerprints and access the results of the check.
                               �	 FBI name check – NSC personnel submit an applicant’s
                                  name and date of birth to the FBI to check against the FBI’s
                                  database of personnel, administrative, applicant, and
                                  criminal files compiled for law enforcement purposes.
                               �	 DOD record check – The NSC also obtains copies of any
                                  records of military investigations during the applicant’s
                                  period of service from a DOD database.

                           Once data entry and background checks are completed, the
                           application is adjudicated and the applicant is interviewed. As part
                           of adjudication, an immigration officer reviews the application
                           packet, as well as any information received during the background
                           and security check process, that may affect the service member’s
                           eligibility to naturalize. The immigration officer may conduct
                           additional security checks for national security risks, public safety
                           issues, current or past targets of investigation, and other law
                           enforcement concerns. The immigration officer interviews the
                           service member, confirms the applicant’s identity, and determines
                           if he or she is eligible for naturalization. For applicants stationed
                           in the United States, the NSC sends the application to a field office
                           near the address provided by the applicant for adjudication. For an
                           applicant being processed overseas, the NSC prepares the file and
                           Certificate of Naturalization and sends the file to an overseas office
                           for adjudication.

                           The final step for approving naturalization applicants is the oath
                           ceremony. Upon completion of the oath, USCIS issues a
                           Certificate of Naturalization to the service member as evidence of
                           U.S. citizenship. For applicants stationed in the United States,
                           field office personnel update CLAIMS 4 to reflect the completion
                           of that process. Field office personnel also update USCIS’ Central
                           Index System (CIS), a central repository of key USCIS information
                           that is used for several purposes including determination of
                           immigration benefits. For overseas applicants, the immigration


U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 5
                           officers return the files to the NSC to perform all necessary
                           updates in CLAIMS 4 and CIS.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 6
Results of Audit

Implementation of the Act
                           USCIS has taken actions to meet the requirements of the Kendell
                           Frederick Citizenship Assistance Act. Specifically, USCIS has
                           implemented a process to obtain and use fingerprint records that
                           were taken at the time of the service member’s enlistment or those
                           provided to USCIS during previous immigration applications. In
                           addition, USCIS tracks and reports military naturalization
                           processing time to ensure that it completes adjudication of
                           applications timely. Further, to improve the military naturalization
                           process and better mitigate the risk to military personnel seeking
                           benefits overseas, USCIS has initiated a military outreach program
                           to naturalize military personnel before they travel overseas. As a
                           result, USCIS has improved the efficiency of processing military
                           naturalization applications and reduced the need for military
                           applicants to travel to obtain fingerprints, thereby minimizing the
                           potential risks to overseas applicants.

Use of Previously Submitted Fingerprints for Military Naturalization Applications

                           The act requires the Secretary of Homeland Security to use
                           fingerprints taken at the time of enlistment, or from prior
                           submission to USCIS, to satisfy the requirements for background
                           and security checks in connection with an application for
                           naturalization.3 Further, the act requires that the Secretary of
                           Homeland Security work with DOD and the FBI to implement
                           procedures to ensure the rapid electronic transmission of biometric
                           data, including previously submitted fingerprints records. These
                           procedures were to be in place by June 2009, 1 year after
                           enactment of the law.

                           After Specialist Frederick’s death in 2005, USCIS recognized the
                           difficulties that service members face when attempting to submit
                           new fingerprints while deployed overseas. To address these
                           obstacles, USCIS developed a process for obtaining previously
                           submitted fingerprints for military naturalization purposes. It
                           implemented the process and began accepting previously
                           submitted fingerprints in May 2006, nearly 3 years before the June
                           2009 deadline.



3
 The act applies to only those individuals applying for naturalization within 24 months of military
enlistment.
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 7
                             The process that USCIS implemented relies on collaboration with
                             the FBI to obtain prior fingerprint records and resubmission of
                             those prints through the existing fingerprint check system. USCIS
                             has personnel located at an FBI facility who serve as liaisons with
                             the FBI to assist with the background check process. The NSC
                             provides the liaison a list of applicants’ names. The liaison first
                             checks USCIS systems for fingerprints previously submitted to
                             USCIS for immigration purposes. Specifically, the liaison checks
                             BBSS to see if the applicant has a current fingerprint check result.4
                             If there is no current result, the liaison checks the Automated
                             Biometric Identification System (IDENT), the official biometric
                             repository for DHS. If there are no prior USCIS prints, the liaison
                             checks FBI repositories for fingerprints submitted by the applicant
                             at the time of enlistment.

                             If previous fingerprints are found, the liaison returns the fingerprint
                             records on a compact disc to the NSC. Personnel at the NSC
                             format these fingerprints from the compact disc and submit them
                             through BBSS to the FBI for the required background check.
                             Figure 3 diagrams the process for obtaining and resubmitting prior
                             fingerprints.




                             Figure 3: Fingerprint Resubmission Process

                             The fingerprint resubmission process implemented by USCIS has
                             enabled it to obtain prior fingerprint records for military applicants,
                             making the naturalization process easier and minimizing the risk of
                             overseas applicants being harmed. As of February 2009, USCIS
                             successfully obtained and reused prior fingerprints for 5,771
                             military applicants since starting the process in 2006.



4
    Fingerprint check results are current for 15 months as determined by DHS policy.
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                    Page 8
                           Previously Submitted Fingerprints Not Used for All Applicants

                           Although successful, the fingerprint resubmission process has not
                           eliminated the need for military applicants to obtain new
                           fingerprints in all cases. For domestic applicants, obtaining new
                           fingerprints is generally faster than locating previously submitted
                           prints. In addition, previously submitted fingerprints cannot be
                           found in some cases, and the FBI sometimes rejects them due to
                           their poor quality.

                           After notifying the applicant, the act permits USCIS to obtain new
                           fingerprints for military applicants if it is quicker and more
                           efficient than using previously submitted fingerprints. USCIS can
                           digitally obtain fingerprints from service members at one of its 136
                           Application Support Centers throughout the country. The center
                           submits the fingerprints electronically to the FBI through BBSS
                           and normally receives results between 2 and 24 hours after
                           submission. Since the process is faster, USCIS encourages
                           military applicants applying domestically to visit an Application
                           Support Center to submit new fingerprints.

                           In some cases, new fingerprints are necessary because previously
                           submitted fingerprint records cannot be located. Fingerprints
                           submitted prior to 2000, when USCIS started storing electronic
                           fingerprints, are not available in IDENT. Further, fingerprints
                           from the time of enlistment cannot always be found. USCIS
                           reported that the FBI cannot locate 15% to 20% of requested
                           prints. It can be difficult to locate enlistment prints because the
                           paper-based and electronic prints are stored with the prints for all
                           DOD personnel, including civilian employees and contractors.
                           Therefore, locating fingerprints taken at the time of enlistment can
                           be a highly labor-intensive and lengthy process.

                           Furthermore, fingerprints that are located are not always of
                           sufficient quality to be accepted by the FBI for conducting a
                           background check. Between 2006 and 2008, USCIS reported that
                           approximately 15% of fingerprints from the time of enlistment
                           were rejected when resubmitted. A USCIS official reported that
                           when the component first implemented the fingerprint
                           resubmission process, many applicants had older enlistment prints
                           taken with ink and paper. These prints are of insufficient quality to
                           resubmit successfully for a new background check. As the number
                           of older ink-and-paper prints has decreased, the rejection rate has
                           decreased. Figure 4 shows the rejection rate for fingerprint
                           resubmissions since the process started in 2006.


U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 9
                           Figure 4: Rejection Rate of Fingerprint Resubmissions

                           When prior fingerprint records cannot be used, military personnel
                           stationed overseas may still face challenges in obtaining
                           fingerprints for naturalization purposes. Overseas applicants can
                           have new fingerprints taken at a U.S. Embassy, Consulate, or
                           USCIS field office. Prints taken at these locations are taken using
                           a fingerprint card and are mailed to the NSC. These hardcopy
                           prints, however, are not always well done and are sometimes
                           unusable due to their poor quality. In addition, for military
                           applicants stationed in a warzone, travelling to have fingerprints
                           taken could be potentially dangerous. For this reason, USCIS now
                           notifies military applicants that they should not travel to have
                           fingerprints taken if it will put them in any danger.

Tracking Processing Times

                           The Kendell Frederick Citizenship Assistance Act requires DHS to
                           expedite the processing of military naturalization applications and
                           complete adjudication within 6 months from the receipt of all
                           background check results. In addition, the Military Personnel
                           Citizenship Processing Act, passed 4 months later in October 2008,
                           changes the 6-month deadline for adjudication to start from the
                           receipt of an application. Starting the processing metric at the time
                           of receipt of the application, rather than after completion of all
                           background checks, encourages USCIS to complete the
                           naturalization process within a shorter timeframe.

                           USCIS has implemented a process to track and report military
                           naturalization processing time. The NSC date stamps all military

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 10
                           naturalization applications upon receipt to identify the starting
                           point for the 6-month deadline. To ensure conscientious
                           monitoring, USCIS produces a monthly report on the status of
                           pending cases. USCIS field office personnel are responsible for
                           addressing each case on the report and providing an update on
                           actions taken to adjudicate the case. USCIS’ four regional offices
                           and the International Operations Division oversee that the field
                           offices address any pending applications that are nearing the
                           deadline. If an application exceeds the 6-month deadline, the
                           report tracks when the NSC notifies the applicant of the reasons for
                           the delay.

                           As a result of these efforts, USCIS has reduced the processing time
                           for military naturalization applications. As shown in Figure 5, the
                           average processing time for military naturalizations has improved
                           from 9.1 months since USCIS started tracking this information in
                           October 2008 to 4.2 months as of July 2009.

                                                10
                                                     9.1   8.9    8.8      8.7
                                                 9
                                                                                 8.2   8.1
                                                                                             7.8
                                                 8

                                                 7
                                                                                                   6.3
                             Time (in months)




                                                 6                                                       5.4

                                                 5
                                                                                                               4.2
                                                 4

                                                 3

                                                 2

                                                 1

                                                 0
                                                     Oct   Nov    Dec      Jan   Feb   Mar   Apr   May   Jun   Jul



                           Figure 5: Average Military Naturalization Processing Time (FY 2009)

                           In addition, the inventory of pending military naturalization
                           applications has decreased. The number of pending applications at
                           the NSC was reduced from 4,537 in October 2008 to 1,955 as of
                           May 2009.

                           Although USCIS has reduced processing time, some applications
                           have taken longer than 6 months to process. Naturalization
                           applications may take longer than 6 months to adjudicate for
                           several reasons. For example, during initial processing at the NSC,
                           obtaining fingerprints and receiving incomplete Certifications of
                           Military of Naval Service are the most common causes of delays.

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                                 Page 11
                           At field offices, delays are attributable to USCIS’ inability to
                           locate the service member due to deployment, change of duty
                           station, or discharge from the military. Between October 2008,
                           when USCIS started tracking applications, and February 2009, 371
                           military naturalization applications that were eventually approved
                           took more than 6 months to process.5 However, these applications
                           comprised only 8% of the 4,489 military naturalizations processed
                           during that period.

Military Outreach

                           In June 2008, just before the Kendell Frederick Citizenship
                           Assistance Act was passed, USCIS began an initiative to improve
                           customer service and outreach to the military. A major goal of this
                           initiative was to naturalize qualified service members domestically,
                           as soon after enlistment as possible and before deployment
                           overseas. USCIS officials reported that one of the best ways to
                           prevent placing additional military members in the situation
                           Specialist Frederick faced is to complete naturalization
                           domestically. In addition to the dangers they face, military
                           applicants overseas are more difficult to keep track of due to
                           frequent location changes.

                           The military outreach initiative has two phases. First, field office
                           directors are responsible for planning activities, such as identifying
                           a military liaison at each military installation within their
                           jurisdiction and coordinating an initial planning meeting. Second,
                           field office directors are responsible for implementation activities,
                           such as developing a plan with their military liaison to create a
                           monthly schedule of individual service member appointments to
                           discuss their specific immigration cases, and for providing services
                           at the military installations whenever possible. Field offices are
                           required to provide monthly reports on the outreach activities
                           conducted.

                           The San Diego District Office is one example of USCIS
                           successfully working with local military installations to provide
                           customer service. In FY 2008, the San Diego District Office
                           processed the largest number of military naturalizations of any
                           field office. Officials at the San Diego District Office reported that
                           outreach has evolved from periodic activities, such as special
                           naturalization ceremonies and quarterly staff consultation visits, to
                           an integrated and comprehensive program-like effort. For
                           example, the San Diego District Office holds bimonthly meetings
                           with military liaisons to establish a consistent channel of
5
    Data were not made available beyond February 2009.
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 12
                           communication. In addition, the district has established military
                           liaisons to serve as points of contact for routine case-specific
                           communications as well as emergency communications to respond
                           to and resolve issues efficiently. As a result of the San Diego
                           District Office’s partnership with the local military, USCIS
                           personnel in this district can more easily reach out and naturalize
                           military personnel before they are deployed overseas.

                           Since October 2008, USCIS field offices have participated in more
                           than 3,000 immigration-related activities on military installations
                           throughout the country. These efforts have helped USCIS begin
                           the naturalization process as early as possible after enlistment. For
                           example, in August 2009, USCIS staff naturalized noncitizen
                           Army soldiers during their basic combat training at Fort Jackson in
                           South Carolina. This ceremony marked the first time that USCIS
                           naturalized service members during basic training.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 13
Technology Initiatives and Challenges

                              USCIS has undertaken several IT initiatives to improve the
                              military naturalization process. Specifically, USCIS has improved
                              customer service through the implementation of a toll-free help
                              line and web page updates. Further, USCIS has begun using
                              mobile fingerprint units and video teleconferences to improve the
                              efficiency of the naturalization process. However, USCIS’ IT
                              systems, such as the application processing system and background
                              check systems, do not meet all user requirements. As a result,
                              personnel must devote resources to work around system
                              limitations. As identified in prior OIG reports, improvements to
                              these systems have largely been put on hold in anticipation of the
                              USCIS IT modernization and transformation effort, which faces
                              ongoing challenges and delays.

Technology Initiatives

                              The Paperwork Reduction Act of 1995 requires that agencies
                              promote the use of information technology to increase the
                              productivity, efficiency and effectiveness of their program
                              operations.6 USCIS has implemented new technology to improve
                              the naturalization process domestically and to avoid endangering
                              service members serving overseas. Specifically, USCIS has
                              established a toll-free number and updated its websites to provide
                              guidance and assistance to military personnel. In addition, USCIS
                              has begun using mobile fingerprint units domestically, and is
                              working to obtain them for use overseas to reduce the need for
                              military applicants to travel to have fingerprints taken. USCIS has
                              also used video teleconference technology for preliminary
                              interviews for soldiers serving in Iraq.

                              Toll-free Number and Website

                              In August 2007, USCIS implemented a toll-free military helpline
                              and e-mail services to assist service members who are applying for
                              naturalization. The helpline staff answers questions relating to the
                              forms required for naturalization and immigration petitions filed by
                              military applicants or their family members. Service members also
                              contact the helpline to change scheduled interview appointments
                              and to update their address information. In addition, USCIS has
                              established several e-mail inboxes to assist military applicants with
                              their naturalization applications, including one for general
                              questions and one specifically for questions relating to fingerprints.

6
    44 U.S.C. § 3506(h)(3).
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 14
                           USCIS estimates that it receives 1,400 to 1,500 helpline calls per
                           month, and it has received 6,800 e-mails since the e-mail service
                           was established.

                           USCIS has also improved its website to provide better guidance to
                           military personnel. These improvements include posting updates
                           on modifications to the naturalization process, along with updating
                           the website’s frequently asked questions and fact sheet
                           periodically. Further, USCIS allows military personnel deployed
                           overseas to enter their military mailing address on the website to
                           receive additional information that is unique for overseas
                           applicants.

                           Mobile Fingerprint Units

                           To improve customer service and avoid processing delays, USCIS
                           has implemented mobile technology to capture fingerprints.
                           Mobile fingerprint units, which consist of a laptop connected to a
                           fingerprint scanner, allow USCIS to collect biometrics on military
                           installations. Currently, there are a limited number of mobile
                           fingerprint units, with one located at each of USCIS’ four domestic
                           regional offices.

                           Although USCIS has not yet deployed mobile fingerprint units
                           overseas, it is developing plans for overseas deployment. USCIS’
                           International Operations Division’s strategic plan lists deploying
                           standardized biometrics capture capability to international field
                           offices as an objective. At the time of our audit, USCIS did not
                           have enough of the biometrics capture devices to implement this
                           plan. Until recently, USCIS was unable to obtain additional units
                           because its Office of Information Technology was assessing
                           suppliers and the technology, a process that lasted 2 years.
                           Recently, the Office of Information Technology approved the use
                           of 32 new units, and it is working with the International Operations
                           Division to deploy the mobile fingerprint units overseas. USCIS
                           plans to deploy the units internationally by FY 2010.

                           Video Teleconference

                           USCIS has also begun to implement video teleconferencing. The
                           USCIS district office in Rome has used video teleconferencing
                           technology to conduct preliminary interviews with members of the
                           armed forces deployed in some areas of Iraq. DOD supports the
                           use of remote preliminary interviews because it reduces the
                           number of days a service member is away from his or her mission
                           and minimizes travel for the applicants. A regular in-person

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 15
                            interview takes approximately 20 minutes. If a preliminary
                            interview has been conducted via webcam, however, the in-person
                            interview takes approximately 10 minutes per service member to
                            complete and finalize the process. Using video teleconferencing
                            also may reduce the amount of time USCIS staff are required to
                            spend in war zones. The USCIS district office in Bangkok, which
                            has jurisdiction over Afghanistan, is exploring the use of similar
                            web-based or video conferencing technology to expedite further
                            the naturalization cases of service members deployed there.

                            USCIS does not, however, use video teleconference technology to
                            conduct the entire interview or the oath ceremony for service
                            members deployed in war zones. According to the Code of
                            Federal Regulations, a USCIS officer must conduct an in-person
                            interview of a naturalization applicant.7 Under the Immigration
                            and Nationality Act an applicant must take the oath of citizenship
                            in a public ceremony before the Attorney General or in a court
                            with appropriate jurisdiction.8 At the time of this audit, USCIS
                            was reviewing whether video teleconference technology would
                            meet the requirements of the law for an in-person interview and
                            public oath.

                            Use of video teleconference for the entire interview and oath
                            process could eliminate several challenges associated with
                            naturalizing military personnel in a warzone. First, DOD cannot
                            always accommodate a USCIS request for ceremonies in Iraq and
                            Afghanistan, which can delay the naturalization process for an
                            applicant. For example, a recent USCIS request to DOD to
                            conduct a February 2009 naturalization ceremony in Afghanistan
                            was declined. The oath ceremony was delayed 4 months, until
                            Memorial Day of 2009. In addition, once allowed to enter a war
                            zone, USCIS staff faces the logistical challenge of bringing
                            together many service members from multiple locations to conduct
                            the interviews and the oath ceremony. Again, service members
                            who must travel in a warzone for naturalization purposes confront
                            risks similar to those that Specialist Frederick faced when he left
                            his base to have his fingerprints taken.

Technology Challenges

                            Under the Paperwork Reduction Act of 1995 and the Clinger-
                            Cohen Act, agencies are required to acquire, manage, and use IT to



7
    8 C.F.R. § 335.2(a). 

8
    Immigration and Nationality Act, Public Law 82-414, Sec. 337(a). 

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                   Page 16
                           improve mission performance.9 USCIS’ IT systems, however,
                           could better support the military naturalization process.
                           Specifically, the application support system CLAIMS 4 and the
                           background check systems do not fully meet all user requirements.
                           In addition, we reported previously that the existing technology
                           environment did not adequately support business processes, and
                           the IT transformation program to modernize USCIS IT continues
                           to face challenges and delays.10

                           Application Processing System

                           The primary system for adjudication of naturalization applications,
                           CLAIMS 4, does not meet certain business process requirements.
                           USCIS uses the windows-based CLAIMS 4 database program as
                           its primary system to receive naturalization applications, input
                           application information, schedule interviews, track adjudication
                           activity, and record completion of oath ceremonies. USCIS
                           headquarters officials stated that CLAIMS 4 is a useful tool
                           compared with a manual process, and it enables them to track the
                           application from receipt to taking the oath. However, the system
                           has data sharing, availability, and reporting limitations.

                           Data Sharing

                           Data transfer for completed naturalization applications from
                           CLAIMS 4 to the Central Index System (CIS) is ineffective. CIS
                           provides a central repository of key USCIS information that is used
                           for several purposes including determination of immigration
                           benefits. When a military naturalization case is completed in
                           CLAIMS 4, the status is updated in CIS. However, post-
                           naturalization mismatches can occur when the field office closes
                           out the case in CLAIMS 4 and the information does not match the
                           information in CIS. Data may not match if, for example, an
                           individual’s name changed between the time it was first entered
                           into CIS for an immigration visa and potentially many years later
                           when the individual completes a citizenship application. When a
                           mismatch occurs, the naturalization information does not upload
                           into CIS automatically, and must be updated manually.11



9
  Paperwork Reduction Act of 1995, Public Law 104-13, May 22, 1995; and the Clinger Cohen Act of 1996,

Public Law 104-106, Division E, Subtitle C, February 10, 1996. 

10
   USCIS Faces Challenges in Modernizing Information Technology, OIG-05-41, September 2005; U.S.

Citizenship and Immigration Services’ Progress in Modernizing Information Technology, OIG-09-90, July 

2009. 

11
   This ongoing data sharing issue was identified in our September 2005 report, USCIS Faces Challenges in

Modernizing Information Technology, OIG-05-41.

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 17
                           As a result, USCIS personnel must devote additional time and
                           resources to correct each mismatch. Specifically, each week the
                           Field Operations Division publishes a post-naturalization mismatch
                           report on its intranet website. This report lists all naturalization
                           cases where certain data fields in CLAIMS 4 do not match the data
                           fields in CIS. The field offices have 10 days after the report is
                           posted to correct the errors in CIS and report to the CLAIMS 4
                           service desk that the error was corrected. Once the error is
                           reported to the service desk, the service desk corrects the problem
                           in CLAIMS 4 and removes it from the mismatch report. Cases that
                           remain unresolved are moved to the archives until the field offices
                           make the necessary corrections.

                           Availability

                           The CLAIMS 4 system has limited availability internationally.
                           Frankfurt, Rome, and Seoul are the only overseas offices with user
                           access to CLAIMS 4 due to connectivity limitations overseas.
                           Even at these locations, the system connectivity is weak, making it
                           slow to use. Since overseas staff resources are limited, CLAIMS 4
                           is inefficient to use except in certain circumstances. For example,
                           the Rome office accesses CLAIMS 4 to correct an error on
                           naturalization paperwork or make other simple updates to an
                           applicant’s file. However, the Rome field office cannot perform
                           more significant updates, such as closing an application upon
                           completion of the naturalization process, because of the weak
                           connectivity.

                           Limited availability of CLAIMS 4 overseas is caused by
                           insufficient bandwidth for accessing the system. USCIS relies on
                           the Department of State (State) for network access; however, State
                           cannot provide USCIS field offices with sufficient bandwidth to
                           meet their requirements. A USCIS official reported that State does
                           not have enough bandwidth to provide more for USCIS. To obtain
                           more bandwidth, USCIS would have to contract service
                           independently from State, which would be too expensive according
                           to a USCIS official.

                           As a result, overseas field offices rely largely on inefficient paper-
                           based processes. For significant updates to CLAIMS 4, overseas
                           offices mail the paper files to the NSC. For example, upon
                           completion of the naturalization process, field offices overseas
                           mail files to the NSC to close out the application in CLAIMS 4.
                           The files take a week to arrive at the NSC. The NSC must then
                           review, process, and backdate the information—a process that can
                           take up to 3 days, depending on other NSC office priorities.

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 18
                           Reporting

                           The CLAIMS 4 system does not provide sufficient reporting
                           capability to meet business needs in all cases. For example,
                           officials at the NSC reported that in order to track the status of
                           military naturalizations, it must produce a high volume of reports.
                           However, CLAIMS 4 does not provide reports with sufficient
                           detail to meet reporting requirements, specifically with regard to
                           the reasons cases are pending.

                           As a result, the NSC is devoting staff resources to create and
                           maintain its own independent database. The NSC developed the
                           Access Military Database, an ad hoc database using Microsoft
                           Access, to meet reporting requirements. Personnel at the NSC
                           enter data on each application into the Access Military Database to
                           track the specific reasons the application is pending and any forms
                           that are still required. NSC officials said that keeping up with the
                           reporting requirements for oversight is time consuming because
                           data entry into the Military Access Database takes several hours a
                           day.

                           Additionally, CLAIMS 4 reporting limitations created a challenge
                           for tracking compliance with the 6-month performance target.
                           Although USCIS was able to identify how long cases had been
                           pending in CLAIMS 4, the system did not contain information on
                           which field offices were responsible for processing each case.
                           This information was contained in another system, CIS. The
                           Northeast Regional Office created a combined report with data
                           from CLAIMS 4 and CIS; however, officials said the report was
                           difficult and time consuming to create and required specialized
                           skills.

                           Background Check Systems Not Consolidated

                           USCIS conducts numerous background and security checks, but
                           these results are not integrated into a single system. While each
                           background and security check may have a different purpose, there
                           is no single location for adjudicators to access the results of these
                           checks. USCIS undertook an effort to create a single repository for
                           background and security check information, the Background
                           Check System, but the effort was unsuccessful. The system was
                           intended to be an adjudicator-accessible database that stored the

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 19
                           results of various background security checks on an individual
                           applicant. Based on a comprehensive review, USCIS canceled this
                           initiative and is considering whether another biometric storage
                           system in development can be used to store all background security
                           check results.

                           In addition, USCIS has two systems for fingerprint submission and
                           storage that have largely redundant functionality. In addition to
                           the BBSS, which is used to manage electronic fingerprint records,
                           USCIS maintains an older system originally used to track paper
                           fingerprint records. USCIS maintains the older system because not
                           all field personnel have access to BBSS because of the IT
                           infrastructure limitations of many field offices. As a result, data
                           must be updated, stored, and secured in two separate systems.
                           USCIS plans to replace these two systems with a new system, the
                           Customer Profile Management System, in 2010.

                           Long-term IT Modernization and Transformation Efforts

                           Incremental improvements to existing IT systems have largely
                           been put on hold due to USCIS’ overarching IT modernization
                           effort underway as part of the IT transformation program. USCIS’
                           IT systems, such as CLAIMS 4 and BBSS, are old, inefficient to
                           maintain and due for replacement. We reported in September 2005
                           that inefficiencies in the USCIS IT environment hindered its ability
                           to carry out its immigration benefits processing mission.12
                           Specifically, USCIS adjudicators used multiple, nonintegrated IT
                           systems to review application forms and supporting data, which
                           reduced productivity and data integrity.

                           In addition, we have reported extensively on USCIS’ efforts to
                           modernize its IT environment through the IT transformation
                           program. In July 2009, we reported that, although USCIS has
                           taken a number of steps to improve its transformation program,
                           including establishing a program office and governance approach,
                           challenges remained.13 Specifically, pilots have had limited
                           success, business process reengineering efforts are incomplete, and
                           stakeholder participation levels have fluctuated, leading to
                           inconsistent business and IT involvement. These challenges affect
                           all USCIS systems, including those used for processing military
                           naturalization applications.



12
  USCIS Faces Challenges in Modernizing Information Technology, OIG-05-41, September 2005.
13
  U.S. Citizenship and Immigration Services’ Progress in Modernizing Information Technology, OIG-09­
90, July 2009.
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 20
Privacy
                           The Kendell Frederick Citizenship Assistance Act requires that
                           DHS implement procedures for the rapid electronic transmission of
                           biometric information provided by military personnel, including
                           fingerprints received from DOD or the FBI, and that the
                           procedures are privacy-safeguarded. USCIS used a system for
                           electronic transmission of biometric data prior to the passage of the
                           act, and because that system has not changed, the act has not had
                           an impact on privacy.

                           In May 2006, however, USCIS developed transmission procedures
                           to obtain previously submitted electronic fingerprints from the FBI
                           for input into the Biometric Benefits Support System (BBSS). In
                           December 2007, USCIS submitted a Privacy Threshold Analysis to
                           the DHS Privacy Office for a determination on whether a Privacy
                           Impact Assessment (PIA) was required for BBSS. The Privacy
                           Office reviewed that analysis and determined that a PIA was
                           required. Although USCIS has prepared a draft PIA, it has not
                           been finalized as of August 2009.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 21
Recommendations
                           We recommend that the Director of USCIS:

                           Recommendation #1: Ensure that requirements not met by the
                           existing application support system, CLAIMS 4, and the lack of a
                           consolidated background check system are addressed through the
                           IT transformation process.

                           Recommendation #2: Implement mobile fingerprint units for
                           military naturalization purposes overseas to improve fingerprint
                           capture capabilities and reduce the burden on military personnel.

                           Recommendation #3: Pursue expanding the use of video
                           teleconference for the naturalization interview and oath in
                           extraordinary situations such as when military personnel are
                           deployed overseas in a warzone.

                           Recommendation #4: Finalize the PIA for BBSS, and ensure that
                           the process to obtain and resubmit prior fingerprint records from
                           partner agencies is included in this PIA.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 22
Management Comments and OIG Analysis
                           We obtained written comments on a draft of this report from the
                           Director, U.S. Citizenship and Immigration Services. We have
                           included a copy of the comments in their entirety in Appendix B.

                           In the comments, the Director concurred with our
                           recommendations and expressed general agreement with the
                           content of the report. Additionally, the Director provided details
                           on steps being taken to address specific findings and
                           recommendations in the report. We have reviewed management’s
                           comments and provided an evaluation of the issues outlined in the
                           comments below.

                           In response to recommendation one, the Director stated that USCIS
                           plans to implement one easily accessible, user-friendly interface to
                           consolidate all background check activities and applicant
                           information as part of the IT transformation effort. In addition, the
                           Director identified plans to expand USCIS’ ability to obtain
                           previously submitted fingerprints from other government agencies
                           to eliminate the need to collect fingerprints from military
                           applicants. The Director envisioned a user-friendly portal to
                           exchange such information, and will provide us with a list of
                           actions and milestones toward achieving this result. We believe
                           that such efforts are a good step toward addressing our
                           recommendation and look forward to learning more about
                           continued progress and improvements in the future.

                           Responding to recommendation two, the Director stated that
                           USCIS has purchased mobile fingerprint units and has begun
                           deploying these units overseas. The Director, however, listed
                           several challenges that USCIS will face when using mobile
                           fingerprint units overseas. These challenges include USCIS’
                           limited ability to travel or securely transmit captured fingerprints
                           within a warzone. Nevertheless, USCIS expects the use of mobile
                           fingerprint capture technology to reduce the burden of obtaining
                           and submitting fingerprints for military personnel seeking
                           naturalization while deployed overseas. USCIS’ actions to
                           implement mobile fingerprint technology overseas are positive
                           steps toward addressing our recommendation.

                           In response to recommendation three, the Director indicated that
                           USCIS supports the idea of conducting naturalization interviews
                           through methods other than face-to-face interviews, including
                           video teleconference. Accordingly, USCIS has piloted the use of
                           these methods and is reviewing the feasibility of this

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 23
                           recommendation. We recognize this action as a positive step
                           toward addressing recommendation three.

                           Responding to recommendation four, the Director stated that
                           USCIS has submitted a PIA to the DHS Privacy Office that covers
                           the BBSS system. Additionally, the Director indicated that USCIS
                           intends to update this PIA to include the process for obtaining
                           fingerprint records from partner agencies, if necessary. We look
                           forward to receiving and reviewing the finalized PIA in order to
                           close this recommendation.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 24
Appendix A
Scope and Methodology

                           We began our audit work by conducting background research to
                           gain an understanding of the Kendell Frederick Citizenship
                           Assistance Act, the technology and processes implemented by
                           USCIS in response to the act, and any privacy and civil liberties
                           implications caused by the implementation of the act. We reviewed
                           a USCIS report to Congress on the act, USCIS reports on the
                           naturalization process for military applicants, and congressional
                           testimony. We met with congressional staffers to coordinate
                           efforts with the Government Accountability Office and further
                           define responsibilities. We met with OIG’s Office of Counsel to
                           obtain information and guidance on privacy laws in relation to this
                           report.

                           To obtain information on the current status of the act, how it is
                           being implemented, and any privacy concerns associated with it,
                           we obtained PIAs for CIS, CLAIMS 4, and the IDENT system,
                           along with a draft of the Immigration Benefits Background
                           Systems PIA. We reviewed the USCIS International Operations
                           Strategic Plan FY 2009–2012, along with internal memos drafted
                           by the USCIS Office of Policy and Strategy. We examined the
                           documents describing the Military Working Group, which works
                           with DOD to facilitate military naturalizations, along with
                           fingerprint charts which describe the steps taken by USCIS to
                           obtain fingerprints depending on the situation and location of the
                           applicant. We reviewed the 2008 and 2009 USCIS Ombudsman
                           reports. We also researched the USCIS website to obtain relevant
                           information on the military naturalization process, along with the
                           component’s strategic plan.

                           We conducted our audit fieldwork from May to July 2009 at
                           USCIS headquarters in Washington, DC. We met with the
                           Domestic Operations Directorate, International Operations
                           Division, Information Technology Office, Office of Policy and
                           Strategy, and the Field Operations Division, all of which play a
                           role in the military naturalization process. We met with the Office
                           of Transformation to learn about new technologies that USCIS
                           plans to implement that could have an effect on military
                           naturalizations. Additionally, we met with the USCIS Privacy
                           Office, the Office of Chief Counsel, and the DHS Privacy Office,
                           which are responsible for making decisions on privacy and
                           protecting the privacy of individuals applying for naturalization.
                           We visited the NSC, where military applications for naturalization
                           are processed in Lincoln, Nebraska, and the USCIS district office
                           in San Diego, California, to gain a more complete understanding of
                           the military naturalization process, including military liaisons’


U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 25
                           roles and responsibilities, the technology used, and issues or
                           concerns related to military processing.

                           We also teleconferenced with USCIS regional offices in
                           Burlington, Vermont, and Laguna Niguel, California, to discuss
                           their responsibilities relating to the military naturalization process,
                           technologies used, and issues or concerns related to military
                           processing.

                           We conducted this performance audit according to generally
                           accepted government auditing standards. Those standards require
                           that we plan and perform the audit to obtain sufficient, appropriate
                           evidence to provide a reasonable basis for our findings and
                           conclusions based on our audit objectives. We believe that the
                           evidence obtained provides a reasonable basis for our findings and
                           conclusions based on our audit objectives.

                           The principal OIG points of contact for this audit are Frank Deffer,
                           Assistant Inspector General for Information Technology Audits,
                           and Richard Harsche, Director, Information Management. Major
                           OIG contributors to the audit are identified in appendix C.




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 26
Appendix B
Management Comments to the Draft Report




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 27
U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act 


                                                   Page 28 

U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act 


                                                   Page 29 

Appendix C
Major Contributors to This Report

                           Information Management Division

                           Richard Harsche, Director
                           Steven Staats, Audit Manager
                           Elizabeth Argeris, Auditor-in-Charge
                           Kia Smith, Auditor
                           Craig Adelman, Auditor
                           Eun Suk Lee, Referencer




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 30
Appendix D
Report Distribution


                           Department of Homeland Security

                           Secretary
                           Deputy Secretary
                           Chief of Staff for Policy
                           Chief of Staff for Operations
                           Deputy Chiefs of Staff
                           General Counsel
                           Executive Secretariat
                           Director, GAO/OIG Liaison Office
                           Assistant Secretary for Office of Policy
                           Assistant Secretary for Office of Public Affairs
                           Assistant Secretary for Office of Legislative Affairs
                           CIS Director for Domestic Operations
                           CIS OIG Liaison

                           Office of Management and Budget

                           Chief, Homeland Security Branch
                           DHS OIG Budget Examiner

                           Congress

                           Congressional Oversight and Appropriations Committees, as
                           appropriate




U.S. Citizenship and Immigration Services’ Implementation of the Kendell Frederick Citizenship Assistance Act

                                                  Page 31
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
